Report No. D-2008-102           June 17, 2008




        Status of Prior Recommendations
   Related to the Defense Intelligence Agency
              Financial Statements
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

DIA                   Defense Intelligence Agency
DoD IG                Department of Defense Inspector General
FACTS                 Financial Accounting and Corporate Tracking System
NSA                   National Security Agency
OMB                   Office of Management and Budget
PP&E                  Property, Plant, and Equipment
                             INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704




                                                                           June 17,2008

MEMORANDUM FOR DIRECTOR, DEFENSE INTELLIGENCE AGENCY

SUBJECT: Report on the Status of Prior Recommendations Related to the
         Defense Intelligence Agency Financial Statements
         (Report No. D-2008-1 02)


       Weare providing this report for information and use. We considered
management comments on a draft of this report in preparing the final report.

        Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no umesolved issues. Therefore, no additional comments are
required.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Marvin L. Peek at (703) 601-5948 (DSN 329-5948) or Ms. Dorothy Jones at
(703) 601-5910 (DSN 329-5910). The team members are listed inside the back cover.
See Appendix C for the report distribution.




                                       frdi~~          O· mcwL
                                       Patricia A. Marsh, CPA
                                     Assistant Inspector General
                                  Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-102                                                       June 17, 2008
   (Project No. D2007-D000FA-0152.000)

                       Status of Prior Recommendations
                   Related to the Defense Intelligence Agency
                             Financial Statements

                                 Executive Summary

Who Should Read This Report and Why? Defense Intelligence Agency (DIA) policy
makers and personnel responsible for internal control, accounting for, and reporting
financial information supporting the DIA financial statements, should read this report.
The report addresses the progress DIA has made in correcting deficiencies identified
relating to the DIA financial statements.

Background. The Office of Management and Budget Circular No. A-50, Revised,
“Audit Followup,” September 29, 1982, states that audit followup is an integral part of
good management and is a shared responsibility of the agency management officials and
the auditors. It further states that corrective action taken by management on resolved
findings and recommendations is essential to improving the effectiveness and efficiency
of Government operations.

During FYs 2002 through 2007, the DoD Office of Inspector General issued five audit
reports with 82 recommendations that addressed deficiencies related to DIA auditability
and reliability of information supporting its financial statements. This report shows the
status of actions taken by DIA to implement those recommendations.

Results. DIA is making progress in implementing recommendations included in our
audit reports on financial-related operations and reporting. We have closed 46 of the
82 recommendations made to correct prior reported deficiencies. Progress has been slow
because many of the recommendations that remain open are directly or indirectly related
to deficiencies that DIA expects to correct when it fully implements its new accounting
system and establishes adequate procedures and controls to ensure supportable and
reliable data are produced. If DIA establishes a centralized system to track and monitor
the implementation of all prior recommendations, it should help to ensure corrective
actions are taken and documented as quickly as feasible. Such a system could also
provide needed oversight to ensure DIA achieves auditable and supportable financial
statements. Until corrective actions are completed as outlined in previous audit reports,
DIA will continue to face major challenges in producing auditable, reliable financial
statements. See the Finding section of the report for the detailed recommendation.

Management Comments and Audit Response. The Director, DIA concurred with the
recommendation and has established and implemented a database showing progress in
correcting deficiencies and explanations of delays. This database is updated as
significant changes occur. Management Comments were fully responsive to the
recommendation. See the Finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.
Table of Contents
Executive Summary                                       i

Background                                             1

Objectives                                             2

Finding
     Progress in Correcting Uncorrected Deficiencies   3

Appendixes
     A. Scope and Methodology                           7
          Prior Coverage                                7
     B. Status of Prior Recommendations                 9
     C. Report Distribution                            25

Management Comments
     Defense Intelligence Agency                       27
Background
           Defense Intelligence Agency. The Defense Intelligence Agency (DIA) is a
           combat support agency created on October 1, 1961, as the nation’s primary
           producer of foreign military intelligence. The Director, DIA is the principal
           leadership advisor on substantive intelligence matters to the Secretary of Defense
           and Chairman, Joint Chiefs of Staff, and he is responsible for coordinating the use
           of DoD intelligence Components’ personnel and resources in order to satisfy DoD
           intelligence requirements.

           Financial Statement Reporting. Federal agencies traditionally prepared
           financial reports to monitor and control the obligations and expenditure of
           budgetary resources. With the enactment of the “Chief Financial Officers Act
           of 1990” (Public Law 101-576), as amended by the “Federal Financial
           Management Act of 1994” (Public Law 103-356), Congress called for the
           Executive departments to submit audited financial statements that fully disclose
           the departments’ financial positions. Financial information from DIA is included
           in the DoD Agency-wide financial statements. In January 1997, the President
           directed the DoD intelligence agencies, including DIA, to begin preparing
           separate classified financial statements, which would be subject to audit.

           Prior Audit Coverage. The DoD Office of Inspector General (DoD IG)
           conducted limited audits of DIA financial statements for FYs 2001 through 2003
           and performed oversight of assessments conducted by Urbach Kahn & Werlin
           LLP, Certified Public Accountants, during FYs 2004 through 2007. During the
           audits and assessments, auditors identified numerous deficiencies that would
           prevent DIA or make it more difficult for DIA to obtain a favorable audit opinion
           on its financial statements.

           Followup Guidance. Office of Management and Budget (OMB) Circular A-50,
           Revised, “Audit Followup,” September 29, 1982, provides the policies and
           procedures for use by executive agencies when considering reports issued by the
           Inspectors General and other organizations where followup is necessary. The
           Circular states that audit followup is an integral part of good management. It
           further states that agency management officials are responsible for taking
           corrective actions. Corrective action taken by management on recommendations
           is essential to improving the effectiveness and efficiency of Government
           operations.

           DoD Directive 7650.3, “Follow-up on General Accounting Office (GAO), 1 DoD
           Inspector General (DoD IG), and Internal Audit Reports,” June 3, 2004, establish
           DoD policy and responsibilities for followup on audits findings and
           recommendations. The Directive requires DoD IG to evaluate corrective actions
           taken by the DoD Components in response to recommendations included in
           Government Accountability Office and DoD IG reports and identify any
           discrepancies to appropriate officials.



1
    The General Accounting Office is now known as the Government Accountability Office.



                                                    1
Objectives
    Our overall audit objective was to assess management’s actions and progress in
    correcting deficiencies identified during our prior financial-related audits.
    Specifically, we determined management’s progress in implementing prior
    financial-related audit recommendations, and we reviewed corrective actions for
    material deficiencies that may prevent DIA from obtaining a favorable audit
    opinion. See Appendix A for a discussion of the scope and methodology and for
    prior coverage related to the objectives.




                                        2
                   Progress in Correcting Uncorrected
                   Deficiencies
                   DIA is making progress in implementing recommendations included in
                   our audit reports on financial-related operations and reporting. We closed
                   46 of the 82 recommendations made to correct prior reported deficiencies.
                   However, DIA has not corrected the remaining deficiencies. Progress has
                   been slow because many of the recommendations that remain open are
                   directly or indirectly related to deficiencies that DIA expects to be
                   corrected when its new accounting system is fully implemented and
                   adequate procedures and controls have been established to ensure
                   supportable and reliable data produced. Establishing a centralized system
                   to track and monitor the implementation of all prior recommendations will
                   help to ensure corrective actions are taken and documented as quickly as
                   feasible and provide needed oversight to ensure DIA achieves auditable
                   and supportable financial statements. Until DIA corrects the deficiencies,
                   it will continue to face challenges in producing auditable, reliable financial
                   statements.

Progress Made
           DIA is taking corrective actions to improve its management, accountability, and
           reporting of information to support its financial statements. For example, DIA
           increased its workforce in its accounting and financial reporting operations and
           obtained contractor support to assist in data cleansing efforts and with
           documenting its processes. In addition, on October 16, 2007, the DIA Business
           Enterprise Office launched a new core financial management system—the
           Financial Accounting and Corporate Tracking System (FACTS). DIA worked
           with the National Security Agency (NSA), its financial service provider, to
           implement FACTS. FACTS is now the DIA official financial system of record.
           DIA and NSA personnel expect FACTS to provide accurate and timely financial
           data when it is fully implemented.

Deficiencies Identified in Previous DoD IG Reports
           During FYs 2002 through 2007, we issued five audit reports that identified
           deficiencies in financial operations; financial reporting; and property, plant, and
           equipment (PP&E). As a result, we made 82 recommendations to correct the
           deficiencies and improve DIA financial operations. We closed 46 of the 82
           recommendations. (We closed 4 of the 46 recommendations because
           recommendations in subsequent reports addressed similar deficiencies.) Table 1
           shows the number of recommendations made in each report by functional area. 2



2
    Some of the recommendations may cover more than one functional area. However, we categorized each
    recommendation into only one of these three functional areas.




                                                    3
          Table 1. Recommendations by Report and Functional Area

                               Financial        Financial
        Report Number*        Operations        Reporting     PP&E       Totals
        D-2002-117                 1                5           0          6
        D-2003-074                 2                6           0          8
        D-2004-079                 1                3          10         14
        D-2005-097                18               13           3         34
        D-2007-029                 1                6          13         20
         Totals                   23               33          26         82
        *See Appendix A for the report title.

Financial Operations. Of the 23 recommendations related to financial
operations, 8 remain open. The uncorrected deficiencies include a lack of:

    •   the ability to record accounts payable upon the receipt of goods and
        services,

    •   written policies and procedures addressing documentation and availability
        of information to support accounting transactions,

    •   completed service-level agreements with the Department of State and the
        Defense Finance and Accounting Service,

    •   correct posting logic for allocations received, and

    •   adequate reviews of unliquidated obligations.

Financial Reporting. Of the 33 recommendations related to financial reporting,
12 remain open. Seven of the open recommendations directly relate to the
continuing implementation of FACTS. Other uncorrected deficiencies include the
need to report liabilities in accordance with generally accepted accounting
principles, to reconcile property general ledger accounts with subsidiary records,
and to record and report all DIA PP&E.

PP&E. Of the 26 recommendations related to PP&E, 16 remain open.
Uncorrected deficiencies include the need to:

   •    finalize a new PP&E manual,

   •    complete processing reports of surveys,

   •    calculate depreciation for all assets,

   •    ensure the availability of adequate support documentation, and

   •    complete a wall-to-wall inventory of all assets.




                                           4
Accounting System
    Prior audits identified several deficiencies related to the DIA accounting system
    that was noncompliant with the Federal Financial Management Improvement Act
    of 1996. This act requires DoD to establish and maintain financial systems that
    comply substantially with Federal financial management system requirements,
    applicable Federal accounting standards, and the U.S. Government Standard
    General Ledger at the transaction level. DIA was unable to correct some
    deficiencies primarily because DIA used a noncompliant NSA accounting system
    to accumulate and report budgetary and expenditure transactions. During the
    audit, DIA officials were heavily involved with NSA personnel in implementing
    FACTS. Because FACTS had significant problems during implementation,
    management and contractor support teams continue to develop and implement
    various capabilities. Complete implementation of FACTS should help correct
    many deficiencies directly or indirectly related to the lack of a compliant
    accounting system. We plan to address these when management has had ample
    time to verify that corrective actions have taken place.

Tracking Recommendations and Monitoring Corrective
  Actions
    DIA did not have procedures in place to track and monitor the implementation of
    the recommendations made in the prior DoD IG audit reports to ensure DIA took
    corrective actions. As a result, DIA did not have readily available information
    regarding the status of all the recommendations and corrective actions.
    Establishing a tracking system for recommendations that have not been
    implemented will not in itself ensure that the recommendations are implemented.
    However, using a tracking system with sufficient management oversight should
    improve management’s ability to ensure DIA makes corrective actions for the
    recommendations as quickly as practical.

    OMB Circular A-123 Revised, “Management’s Responsibility for Internal
    Control,” December 21, 2004, states that correcting deficiencies is an integral part
    of management accountability and agencies must consider this a priority by the
    agency. It further states that the extent to which an agency tracks corrective
    actions should be commensurate with the severity of the deficiency. All agencies
    should develop corrective action plans for all material weaknesses, which it
    defines as reportable conditions that management determined to be significant
    enough to be reported outside the agency.

    OMB Circular A-50, Revised, requires agencies to assign a high priority to
    resolving audit recommendations and taking corrective action. It further requires
    that the agency maintain accurate records of the status of audit reports or
    recommendations through the entire process of resolution and corrective action.
    In addition, DoD Internal Audit Manual 7600.7-M, June 1990, states that
    management of the audited entity is primarily responsible for directing and
    completing action on recommendations.

    Of the 82 recommendations included in the past five reports, 36 remain open
    because corrective actions have not been completed, as shown on Table 2.


                                         5
    Additional information on the status and each recommendation is shown in
    Appendix B.

                           Table 2. Recommendation Status

             Functional
                Area            Open           Closed              Total
           Financial
           Operations             8               15                23
           Financial
           Reporting             12               21                33
           PP&E                  16               10                26
            Total                36               46                82

    During the audit, personnel responsible for accountability and reporting of PP&E
    began keeping some data to track the status of each applicable recommendation.
    However, documentation supporting their conclusions was not complete.
    Developing and implementing a comprehensive system to track the status of all
    recommendations, as begun by logistics personnel in tracking recommendations
    related to PP&E, would highlight areas where corrective actions are falling behind
    and facilitate DIA management in completing corrective actions more quickly.
Recommendation, Management Comments, and Audit
  Response
    We recommend that the Director of the Defense Intelligence Agency establish
    and implement a process to track and monitor the status of all
    recommendations and corrective actions. At a minimum, the process should
    include:

       -     documented plans to ensure corrective actions for all open
             recommendations,

       -     timely updates to accurate records showing the status of each
             recommendation, and
       -     well-documented support showing progress or reasons for a lack of
             progress.

    Management Comments. The Director, DIA concurred and has established and
    implemented a system which includes findings and recommendations from prior
    audit reports in an online database. The database cross references to corrective
    action plans, shows dates when various activities took place, and includes
    information on progress or explanations of delays. It is also designed to be
    updated as significant changes occur.

    Audit Response. Management was fully responsive to the recommendation. We
    have reviewed the database and, when further enhancements are made, if properly
    updated, it should provide DIA management with a useful tool to track and
    monitor the status of recommendations and deficiencies. We consider the
    recommendation closed.



                                        6
Appendix A. Scope and Methodology
    We conducted this followup audit from March 2007 through March 2008 in
    accordance with generally accepted government auditing standards. Those
    standards require that we plan and perform the audit to obtain sufficient,
    appropriate evidence to provide a reasonable basis for our finding and conclusion
    based on our audit objectives. We believe that the evidence obtained provides a
    reasonable basis for our finding and conclusion based on our audit objectives.

    We performed this audit at the DIA Defense Intelligence Analysis Center in
    Washington, D.C. We assessed DIA actions taken to implement the
    82 recommendations DoD IG made in five audit reports issued during FYs 2002
    through 2007. We also issued Report No. D-2008-003, “Auditability Assessment
    of the Defense Intelligence Agency Fund Balance with Treasury and
    Appropriations Received,” on October 16, 2007. We did not include the status of
    these recommendations in our audit because we wanted to give DIA time to take
    corrective actions. We reviewed each recommendation and the documentation
    DIA provided to show implementation and progress made in correcting the
    deficiencies associated with the recommendations. DIA provided the estimated
    completion dates shown in Appendix B for open recommendations.

    Our review of internal controls consisted of reviewing how DIA monitors and
    tracks the status of prior recommendations for corrective actions. DIA internal
    controls should improve if it establishes a tracking mechanism to monitor the
    status of each open recommendation.

    DIA began using FACTS during this audit. However, because it was newly
    established and had significant problems when DIA first began using it, DIA was
    not able to provide us with information regarding the status of some of these
    recommendations. We will review these at a later date when DIA has had
    sufficient time to fully implement its new accounting system.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Financial Management high-risk area.

Prior Coverage
    During the last 6 years, the Department of Defense Inspector General (DoD IG)
    has issued six reports discussing DIA management, accountability, and reporting
    on the agency stewardship over its assets.

    DoD IG Report No. D-2008-003, “Auditability Assessment of the Defense
    Intelligence Agency Fund Balance with Treasury and Appropriations Received,
    October 16, 2007

    DoD IG Report No. D-2007-029, “Auditability Assessment of the Defense
    Intelligence Agency Business Processes for the Identification, Documentation,


                                        7
and Reporting of Property, Plant, and Equipment,” November 30, 2006
(Classification: SECRET//NOFORN)

DoD IG Report No. D-2005-097, “Auditability Assessment for the Financial
Statements of the Defense Intelligence Agency,” August 18, 2005
(Classification: SECRET//NOFORN)

DoD IG Report No. D-2004-079, “Reliability of the Defense Intelligence Agency
FY 2003 Financial Statements,” April 29, 2004 (Classification: SECRET//XI)

DoD IG Report No. D-2003-074, “Reliability of the FY 2002 Defense
Intelligence Agency Financial Statements and Adequacy of Related Procedures
and Controls,” April 7, 2003 (Classification: SECRET)

DoD IG Report No. D-2002-117, “Review of the FY 2001 Financial Statements
for the Defense Intelligence Agency,” June 25, 2002 (Classification: SECRET)




                                   8
Appendix B. Status of Prior Recommendations
          The five tables below present, by audit report, the status (open or closed) of all
          DoD IG recommendations issued to DIA as a result of prior audits. We included
          a justification for the status, as well as the functional area for each
          recommendation.

                        Table B-1. “Review of the FY 2001 Financial Statements
                                  for the Defense Intelligence Agency”
                            (DoD IG Report No. D-2002-117, June 25, 2002)

                                                                                                    Functional
No.                 Recommendation                   Status             Justification
                                                                                                      Area
1.        Continue to participate, as required, in   Closed   DIA continues to work with           Financial
          the development of the DoD financial                NSA, and on October 16, 2007,        Operations
          management enterprise architecture that             DIA launched its new financial
          is being led by the Under Secretary of              system.
          Defense (Comptroller)/Chief Financial
          Officer, DoD Financial Modernization
          Program Office.
2.        Comply with Office of Management           Closed   DIA generally complies with          Financial
          and Budget and DoD guidance when                    OMB and DoD guidance in              Reporting
          preparing the Overview and Principal                preparing its financial
          Statements.                                         statements. Although DIA
                                                              cannot correctly account for all
                                                              imputed cost, it disclosed the
                                                              discrepancy in Note 19 to the
                                                              financial statements.
3.        Establish procedures to ensure that all
          required reconciliations are performed.
          Specifically:
     a.   Coordinate with the Defense Finance        Closed   DIA is coordinating with the         Financial
          and Accounting Service to obtain                    Defense Finance and Accounting       Reporting
          detailed information to assist in the               Service. However, DIA is
          reconciliation of the Fund Balance with             unable to reconcile fully its Fund
          the Treasury account.                               Balance with Treasury. We
                                                              made specific recommendations
                                                              in Report No. D-2008-003;
                                                              therefore, we closed this
                                                              recommendation.
     b.   Perform DoD required financial             Closed   DIA started using the Defense        Financial
          statement reconciliation.                           Departmental Reporting System        Reporting
                                                              in January 2008. This system
                                                              performs required
                                                              reconciliations.
     c.   Perform quarterly reconciliation of        Open     DIA assigned this task to            Financial
          proprietary general ledger accounts to              integrated process teams as a        Reporting
          the subsidiary records.                             plan of action. Estimated
                                                              completion: end of FY 2010.




                                                       9
                                                                                           Functional
No.             Recommendation                 Status            Justification
                                                                                             Area
4.    Evaluate and commit the manpower         Closed   DIA increased its work force      Financial
      resources necessary to fully comply               from 8 to 18. In addition, DIA    Reporting
      with OMB and DoD guidance for the                 has complied with the quarterly
      preparation and presentation of agency            reporting requirement.
      financial statements, the anticipated
      future accelerated reporting
      requirements, and the review of unpaid
      obligations.




                                                10
 Table B-2. “Reliability of the FY 2002 Defense Intelligence Agency Financial
       Statements and Adequacy of Related Procedures and Controls”
               (DoD IG Report No. D-2003-074, April 7, 2003)


                                                                                                        Functional
No.                Recommendation                       Status              Justification
                                                                                                           Area
1.        Evaluate and commit the personnel         Closed       DIA has increased its work force       Financial
          resources necessary to fully comply                    from 8 to 18. In addition, DIA         Reporting
          with OMB and DoD guidance for the                      has complied with the quarterly
          preparation of agency financial                        reporting.
          statements and related footnotes.
2.        Prepare future financial statements in    Closed       DIA prepared financial statements      Financial
          accordance with the most current                       in accordance with guidance.           Reporting
          guidance issued by OMB and DoD.
3.        Establish internal control procedures
          that, at a minimum, require
          accounting personnel to:
     a.   Perform tri-annual reviews in             Open         DIA stated that it performed these     Financial
          accordance with DoD guidance.                          reviews in FY 2006, but could not      Operations
          Also, perform followup on the result                   provide evidence to support this
          of the reviews in a timely manner.                     assertion. In FY 2007, DIA did
                                                                 not perform the review because of
                                                                 its data cleansing efforts. DIA
                                                                 scheduled the first review for FY
                                                                 2008 to begin in February 2008.
                                                                 We will assess the results of the
                                                                 efforts later to confirm that DIA
                                                                 is consistently performing and
                                                                 documenting the required
                                                                 reviews.
     b.   Coordinate with NSA to determine          Closed       This recommendation pertained to       Financial
          whether NSA Report GRT905 should                       a report generated from a DIA          Operations
          be modified to capture the date of the                 legacy accounting system, which
          most recent activity to assist in the                  is no longer used. Therefore, we
          required tri-annual reviews.                           closed the recommendation.
     c.   Record, report, and estimate material     Open         DIA developed a plan of action         Financial
          year-end liabilities in accordance                     and milestones for recording           Reporting
          with generally accepted accounting                     liabilities and assigned the plan to
          principles.                                            its “Procure to Pay” Integrated
                                                                 Process Team. Expected
                                                                 completion: September 2010.
     d.   Ensure that journal vouchers are          Closed       DIA included the budgetary             Financial
          prepared in accordance with the                        entries in it journal vouchers, as     Reporting
          Treasury Financial Manual and have                     required by the Treasury
          adequate support.                                      Financial Manual and maintained
                                                                 support documentations for the
                                                                 entries.
     e.   Reconcile the fiscal year-end             Closed       DIA manually reconciled its            Financial
          proprietary trial balance to the                       fiscal year-end proprietary trial      Reporting
          certified budgetary execution reports.                 balance to the certified budgetary
                                                                 execution reports in FY 2007.



                                                   11
                                                                                                 Functional
No.            Recommendation                      Status             Justification
                                                                                                    Area
 f.   Document the procedures and              Closed       DIA documented its procedures        Financial
      methodologies use to accumulate,                      for preparing the financial          Reporting
      process, report, and review financial                 statements and other required
      and financial-related information.                    financial reports with flow charts
                                                            and narrative.




                                              12
                    Table B-3. “Reliability of the Defense Intelligence Agency
                                FY 2003 Financial Statements”
                         (DoD IG Report No. D-2004-079, April 29, 2004)

                                                                                                         Functional
 No.            Recommendation                 Status                   Justification
                                                                                                           Area
A.1.   Work with the Defense Finance and       Closed   DIA implemented use of the “Transactions        Financial
       Accounting Service and NSA to                    By Others Auto Post Program” on                 Operations
       develop an automated procedure to                October 1, 2006.
       process disbursement transactions
       into DIA accounting records.
A.2.   Establish an automated system to        Closed   DIA used the Defense Department                 Financial
       prepare financial statements based on            Reporting System to prepare its first quarter   Reporting
       the trial balance.                               FY 2008 Financial Statements.
A.3.   Comply with OMB and DoD                 Closed   DIA complied with OMB and DoD                   Financial
       guidance when preparing the                      guidance for preparing the financial            Reporting
       financial statements to ensure that              statements to include the preparation of
       they provide comparative financial               comparative financial statements with
       statements and explanations of                   explanations of significant variances from
       significant variances from year to               year to year.
       year.
B.1.   Ensure that capital property reported   Open     DIA is identifying personal property to be      Financial
       on the Balance Sheet agrees with                 included on the Balance Sheet. Estimated        Reporting
       subsidiary records.                              completion: September 2008.
B.2.   Establish controls to ensure proper     Closed   Report No. D-2007-029, Recommendation           PP&E
       documentation (such as an invoice) is            2.c. replaced this recommendation.
       used and maintained to support the
       acquisition of capital property.
B.3.   Complete a wall-to-wall inventory       Closed   Report No. D-2007-029, Recommendation           PP&E
       (including property with the Iraq                3 and 5.a cover this recommendation.
       Survey Group) and use the
       information to update the appropriate
       property system.
B.4.   Update the Logistics Operation          Open     Closure of this recommendation is               PP&E
       Manual and develop a property                    dependent on the issuance of a replacement
       system manual that incorporates the              to DIA Manual 25-1, which is expected to
       requirements of DoD Instruction                  be finalized in March 2008.
       5000.64 and the DoD Financial
       Management Regulation for property
       accountability.
B.5.   Complete reports of survey within       Open     DIA has not completed processing reports of PP&E
       the timeframes established in DIA                survey. New target date for completion:
       Manual 25-3, and process them in                 fourth quarter, FY 2008.
       accordance with the guidance in the
       DoD Financial Management
       Regulation.
B.6.   Update the Logistical Services,         Open     DIA has not updated the Logistical Services     PP&E
       Accounting for Lost, Damage, and                 Manual. Estimated completion: second
       Destroyed Property Manual to                     quarter, FY 2008.
       incorporate the requirements of the
       DoD Financial Management
       Regulation.



                                                  13
                                                                                                               Functional
 No.                 Recommendation                  Status                   Justification
                                                                                                                 Area
B.7.        Ensure that personnel are properly       Closed   DIA has provided training to its officers for   PP&E
            trained on property accountability for            accountable property in identifying capital
            financial reporting requirement.                  assets and the documentation needed to
                                                              support property valuation.
B.8.        Established management controls to
            ensure that:
       a.   Sufficient documentation is available    Open     Transactions occurring after FY 2004            PP&E
            (such as completed reports of survey)             involving transfer or removal of DIA
            for property removed from                         property are electronically archived within
            accountable records.                              the property accountability system. DIA
                                                              maintains all adjustments in electronic
                                                              archives and property personnel maintain
                                                              signed copies of such transactions format
                                                              suitable for audit. DIA has performed a
                                                              limited review of the support for these
                                                              transactions and plans to expand the review
                                                              to focus on achieving documentation for all
                                                              transactions. Estimated completion:
                                                              second quarter, FY 2008.
       b.   Transferred capital assets within DIA    Closed   DIA established management controls to          PP&E
            are not deleted from the property                 ensure that transferred capital assets within
            system.                                           DIA are not deleted from the property
                                                              system.
       c.   Adequate supporting documentation        Closed   DIA established management controls to          PP&E
            is prepared promptly for assets                   ensure that adequate supporting
            transferred between locations.                    documentation is prepared for assets
                                                              transferred between locations.
       d.   Depreciation is correctly calculated     Open     DIA calculated depreciation on buildings        PP&E
            and recorded for each capital asset               only. Depreciation on personal property has
            item in accordance with the DoD                   been excluded until all such property is
            Financial Management Regulation.                  entered into the DIA general ledger.
                                                              Estimated completion: fourth quarter,
                                                              FY 2008.




                                                        14
         Table B-4. “Auditability Assessment for the Financial Statements of the
                             Defense Intelligence Agency”
                    (DoD IG Report No. D-2005-097, August 18, 2005)

                                                                                                    Functional
No.           Recommendation                    Status                Justification
                                                                                                      Area
1.a.   Ensure that the contractor developing    Closed   DIA has system procedure manuals that     Financial
       the accounting policies and                       provide step-by-step instructions for     Operations
       procedures manual works closely                   completing certain tasks within
       with the systems development team                 FACTS. In addition, each manual
       to coordinate all business process                includes process flow diagrams.
       improvements with standard design
       capabilities of the new Financial
       Management System.
1.b.   Work with NSA to ensure that any         Closed   DIA began using FACTS in October          Financial
       accounting and reporting                          2007 with goals to enhance decision       Operations
       requirements unique to intelligence               making, improve financial operations,
       agencies and DoD are properly                     ensure operational continuity, and
       incorporated in the new Financial                 enable compliance with the Chief
       Management System.                                Financial Officers Act. DIA continues
                                                         to work with NSA to resolve problems
                                                         related to implementing FACTS.
2.a.   Conduct a risk assessment of its         Closed   DIA complied with DoD guidance for        Financial
       financial management activities and               implementing OMB Circular A-123,          Operations
       business processes, identify broad                Appendix A, which satisfies the intent
       mitigating controls, and develop a                of the recommendations.
       detailed matrix of critical accounting
       control activities to be incorporated
       into its business processes.
2.b.   Establish a core team dedicated to       Closed   DIA established a core team to ensure     Financial
       ensuring that critical accounting                 critical accounting controls are          Operations
       controls are highlighted in its                   implemented as part of the OMB
       business process documentation.                   Circular A-123, Appendix A process.
2.c.   Ensure that the core team is             Closed   DIA developed test plans in accordance    Financial
       responsible for developing and                    with DoD instruction for implementing     Operations
       executing a financial testing plan to             OMB Circular A-123.
       meet the upcoming requirements of
       the revised OMB Circular A-123.
3.a.   Confirm the correct US Standard          Open     DIA continues to post allocations as if   Financial
       General Ledger posting to be used                 it received the appropriations from       Operations
       when receiving allocations from the               OMB, instead of the Office of the
       Office of the Secretary of Defense.               Secretary of Defense, and did not
                                                         confirm if the correct accounts were
                                                         used.
3.b.   Work with NSA to ensure that the         Open     Implementing this recommendation is       Financial
       proper transaction code for receiving             dependent on implementation of            Operations
       allocations from DoD is incorporated              Recommendation 3.a.
       into the new Financial Management
       System.




                                                 15
                                                                                                      Functional
No.           Recommendation                     Status                Justification
                                                                                                        Area
4.a.   Work with NSA to ensure the new           Open     DIA financial systems personnel did        Financial
       core Financial Management System                   not respond to our queries regarding its   Reporting
       has full and efficient capabilities for            development of FACTS because they
       generating subsidiary detail reports               were working on implementing the new
       for all financial account balances.                system. In October 2007, DIA began
                                                          using a new accounting system,
                                                          FACTS, developed for the National
                                                          Security Agency. DIA has been
                                                          working closely with the contractor and
                                                          NSA during the development of this
                                                          system. DIA and NSA continue to
                                                          correct numerous problems associated
                                                          with FACTS, and they are developing
                                                          new procedures to support using it. We
                                                          will assess compliance with the
                                                          recommendations at a later date when
                                                          DIA has had ample time to implement
                                                          the new accounting system.
4.b.   Establish routine monitoring              Open     DIA is working to develop the              Financial
       procedures to review and approve                   necessary procedures. Closing this         Reporting
       routine reconciliations of related                 recommendation may be delayed
       subsidiary transactional data with                 because DIA wants to ensure the new
       trial balance amounts to ensure                    procedures are fully compatible with
       balances are accurately reported.                  FACTS.
4.c.   Ensure that data files supporting the     Open     See justification for Recommendation       Financial
       amounts on reconciliations, including              4.a.                                       Reporting
       adjustments, can be provided to the
       auditors in an electronic format
       timely.
5.a.   Develop standard reports in its           Open     See justification for Recommendation       Financial
       current general ledger system that                 4.a.                                       Reporting
       creates subsidiary ledger detail for
       major general ledger account
       balances.
5.b.   Work with NSA to ensure that the          Open     See justification for Recommendation       Financial
       new core Financial Management                      4.a.                                       Reporting
       System being developed incorporated
       functional reporting capabilities
       needed to support financial reporting,
       monitoring and audit requirements.




                                                  16
                                                                                                      Functional
No.           Recommendation                      Status                Justification
                                                                                                        Area
6.a.   Develop and implement a                    Open     DIA stated that its budget formulation    Financial
       comprehensive budget formulation                    system is compliant with the Joint        Reporting
       system that is integrated with the                  Financial Management Improvement
       budget implementation system and                    Program. However, it did not provide
       the new core Financial Management                   supporting documentation for this
       System consistent with the goals and                assertion.
       objectives of OMB, the Joint
       Financial Management Improvement
       Program, and the Department of
       Defense Business Management
       Modernization Program.
6.b.   Work with NSA to identify any              Closed   DIA implemented the “Transactions By      Financial
       limitations to the future integration of            Others Auto Post Program” on              Operations
       feeder system between DIA                           October 1, 2006.
       disbursing servicers and the new core
       Financial Management System.
6.c.   Conduct a risk assessment as to the        Closed   See comments to Recommendation 6.b.       Financial
       impact of identified limitations to the             DIA is now addressing interface issues.   Operations
       future integration of feeder systems
       between DIA disbursing servicers
       and the new core Financial
       Management System that addresses
       the effect on DIA auditability.
7.a.   Establish written policies and             Open     DIA is developing the necessary           Financial
       procedures that address the                         procedures. However, closing this         Operations
       documentation of financial                          recommendation may be delayed
       transactions and ensure the ready                   because DIA wants to ensure the new
       availability of such documentation                  procedures are fully compatible with
       for examination as required by                      FACTS.
       Government Accountability Office
       guidance.
7.b.   Develop working-level document             Open     See justification for Recommendation      Financial
       retention and retrieval policies and                7.a.                                      Operations
       procedures for each business process,
       and the type of source documents
       needed to support the new audit
       facilitation requirements.
7.c.   Develop a Service Level Agreement          Open     DIA has developed a Service Level         Financial
       contract with NSA, the Defense                      Agreement with NSA, but has not           Operations
       Finance and Accounting Service, and                 completed agreements with the
       the Department of State that                        Department of State and the Defense
       addresses accounting services and                   Finance and Accounting Service. DIA
       support to be provided by each                      continues to resolve selected issues.
       activity, specifically the maintenance              Estimated completion: September
       and availability of adequate                        2010.
       supporting documentation for
       disbursements.




                                                   17
                                                                                                   Functional
No.           Recommendation                     Status                Justification
                                                                                                     Area
8.a.    Design, document, and implement          Closed   FACTS allows for the input of the       Financial
        business processes to ensure                      transaction date, as well as the        Operations
        accounting entries for financial                  recording date.
        transactions properly reflect when the
        transactions occurred.
8.b.    Work with NSA to ensure that the         Closed   FACTS has the capability to capture     Financial
        new core Financial Management                     the accounting month and the            Operations
        System has the capability to record               transaction dates.
        transactions in multiple accounting
        months and that the accounting
        policies and procedures address
        properly dating accounting events
        recorded in the system.
8.c.    Reinforce with program and               Closed   DIA training stress the importance of   Financial
        accounting staff the importance of                timely execution and posting of         Operations
        timely execution and posting of                   accounting events.
        accounting events in training to be
        provided for the new core Financial
        Management System.
9.a.    Establish policies and procedures to     Open     DIA is establishing the necessary       Financial
        record significant delivered goods                policies and procedures and has         Operations
        and services as accrued expenses,                 assigned this recommendation to the
        record invoices received but not yet              “Procure to Pay” Integrated Process
        paid as accounts payable, and to                  Team. Estimated completion:
        maintain adequate evidence of                     September 2008.
        performance as required by DoD
        Financial Management Regulation
        guidance.
9.b.    Determine the extent to which these      Open     We expect to close this                 Financial
        transactions can be identified and                recommendation when DIA completes       Operations
        reported by field activities and other            Recommendation 7.c. from
        activities that service DIA (such as              Report D-2005-097.
        DFAS, Department of State, and
        others) and document procedures
        required to be performed in the
        service-level agreement.
10.a.   Ensure the current on-going              Closed   Report No. D-2007-029,                  PP&E
        wall-to-wall inventory identifies all             Recommendation 3 covers this
        capitalizeable personal property and              recommendation.
        the results of the inventory are
        properly recorded in the appropriated
        general ledger account as required by
        DoD Financial Management
        Regulation guidance.




                                                  18
                                                                                                      Functional
No.           Recommendation                     Status                Justification
                                                                                                        Area
10.b.   Establish policies and procedures that   Closed   DIA has established the applicable         PP&E
        address the process and                           policies and procedures, which are
        documentation of periodic physical                included in DIA Instruction 4000.001,
        inventories of real and personal                  April 4, 2007.
        property as required by DoD
        Financial Management Regulation
        guidance.
10.c.   Ensure that the accounting policies      Closed   Report No. D-2007-029,                     PP&E
        are designed to ensure documentation              Recommendation 1 covers this
        relating to additions, deletions, and             recommendation.
        adjustments to capitalized assets and
        accountable property maintained is in
        accordance with DoD standards to
        support the existence, completeness,
        and valuation assertions.
11.     Work with NSA to ensure that the         Closed   FACTS has the capability to capture        Financial
        new core Financial Management                     the required trading partner data.         Reporting
        System incorporates all trading
        partner data fields and reporting
        capabilities required to support the
        elimination validation processes and
        Required Supplementary Information
        requirements of DoD and OMB.
12.a.   Work with NSA to obtain cost             Open     See justification for Recommendation       Financial
        effective system queries from the                 4.a.                                       Reporting
        current general ledger system to
        report costs by program in
        accordance with the Federal
        Accounting Standards Advisory
        Board and OMB requirements.
12.b.   Work with NSA to ensure that the         Open     See justification for Recommendation       Financial
        new core Financial Management                     4.a.                                       Reporting
        System incorporates all data fields
        and reporting capabilities required to
        support the cost accounting processes
        and requirements of the Federal
        Accounting Standards Advisory
        Board and OMB.
13.     Use an interim period financial close    Closed   DIA began using the Defense                Financial
        to test the controls over the Defense             Departmental Reporting System for the      Reporting
        Departmental Reporting System prior               first quarter of FY 2008 and, thus, will
        to reliance on the system for the                 have ample time to correct any
        year-end financial statement                      problems that it incurs before the
        preparation process.                              FY 2008 financial statements are
                                                          prepared.




                                                  19
                                                                                                      Functional
No.           Recommendation                     Status                Justification
                                                                                                        Area
14.a.   Require DIA Comptroller to review        Closed   We closed this recommendation              Financial
        the requirements for an audit                     because DIA is not close to having         Reporting
        management representation letter                  auditable financial statements and will
        with the appropriate senior                       not be required to prepare a
        management officials to reduce the                management representation letter until
        questions and concerns over this                  its financial statements are audited.
        standard audit requirement.
14.b.   Begin the management                     Closed   See justification for Recommendation       Financial
        representation letter process early in            14.a.                                      Reporting
        a future audit cycle to ensure all
        parties have sufficient time to review
        and consider the representations.
15.a.   Continue to provide all key senior       Closed   DIA now provides key senior                Financial
        management officials with updates                 management with updates on its             Reporting
        on the financial management                       initiatives, which highlight the impact
        improvement initiatives underway                  of these efforts on operations.
        and highlight what impact these
        efforts will have on the day-to-day
        operations of their respective areas.
15.b.   Work with NSA to ensure that             Closed   DIA stressed the importance of the         Financial
        training materials for the new                    system to the agency’s auditability goal   Operations
        Financial Management System                       in its training materials.
        highlight the strategic importance of
        the system to the agency's goal of
        auditability and overall improved
        financial management.




                                                  20
              Table B-5. “Auditability Assessment of the Defense Intelligence Agency
                  Business Processes for the Identification, Documentation, and
                          Reporting of Property, Plant, and Equipment”
                       (DoD IG Report No. D-2007-029, November 30, 2006)

                                                                                                         Functional
No.                    Recommendation                      Status                Justification
                                                                                                           Area
1.     Ensure the establishment of policy         Closed      DIA issued DIA Property                   Financial
       and procedures that address the                        Accountability Instruction 4000.001,      Operations
       process and documentation for the                      which establishes the requirements of
       identification, capitalization, and                    the recommendation or refers the
       reporting of PP&E as required by the                   reader to the applicable guidance in
       DoD Financial Management                               DoD Regulation 7000.14-R.
       Regulation and Government
       Accountability Office Standards for
       Internal Control in the Federal
       Government.
2.a.   Require Property Book Officers             Open        This is an ongoing process and is         PP&E
       located throughout the DIA to                          addressed in DIA Instruction
       identify, record, and report all capital               4000.001. DIA now has resources
       equipment assets that meet the DoD                     required to improve asset acquisition
       Financial Management Regulation                        reporting and identification of capital
       capitalization threshold.                              and non-capital expenditures.
                                                              However, complete compliance with
                                                              this recommendation is dependent on
                                                              the implementation of compliant
                                                              accounting and business processes
                                                              and business feeder systems.
                                                              Estimated completion: September
                                                              2010.
2.b.   Update roles, policies, and                Closed      Instead of updating DIA                   PP&E
       procedures contained in DIA                            Manual 25-1, DIA developed DIA
       Manual 25-1, to address the                            Instruction 4000.001, which
       identification, documentation and                      adequately addresses the
       reporting of capital equipment assets                  identification, documentation, and
       that are required to be reported in                    reporting of capital equipment.
       DIA financial statements.
2.c.   Review all capital equipment assets        Open        This is an ongoing effort as DIA          PP&E
       currently reported by Property Book                    acquires new assets. Full compliance
       Officers to ensure that required                       will require implementing compliant
       supporting documentation is                            accounting and business system
       maintained, as required by the DoD                     processes and feeder systems that
       Financial Management Regulation.                       house the supporting documentation
                                                              for each capital asset. Estimated
                                                              completion: September 2008.




                                                         21
                                                                                                         Functional
No.                    Recommendation                     Status                 Justification
                                                                                                           Area
3.     Complete the wall-to-wall inventory       Open        DIA performed an initial inventory         PP&E
       to identify all personal property and                 for all combatant commands except
       record the results of the inventory in                for Korea. After DIA completed the
       the appropriate general ledger                        initial inventory, it discovered
       accounts as required by the DoD                       additional property that should be
       Financial Management Regulation.                      included in the original count. DIA
                                                             continues to work with the combatant
                                                             commands to obtain an accurate and
                                                             complete inventory. Estimated
                                                             completion: September 30, 2008.
4.     Develop and implement an                  Open        Estimated completion of this               PP&E
       agency-wide PP&E methodology                          recommendation is dependent on the
       that is integrated with the planned                   release of the NSA master schedule
       new core financial management                         for the new financial management
       system and is consistent with the                     system and the availability of funds
       goals and objectives of DoD                           to implement replacement systems.
       Business Management                                   DIA estimates the implementation of
       Modernization Program, the Federal                    the new system to begin in late
       Financial Management Improvement                      FY 2008 with full operating
       Act, and OMB Circular A-130.                          capability by the end of FY 2012.
5.a.   Identify all buildings, facilities, and   Open        DIA has identified all buildings,          PP&E
       other structures located both within                  facilities, and other structures, and it
       and outside the U.S., and properly                    has entered most of the required
       record the results in the appropriate                 information into the general ledger.
       general ledger accounts as required                   DIA will update the general ledger as
       by the DoD Financial Management                       it identifies capital improvements or
       Regulation.                                           new acquisitions. DIA is also
                                                             completing its preponderant use
                                                             reconciliation. Estimated
                                                             completion: September 30, 2008.
5.b.   Require the Directorate of Human          Open        DIA logistics division recently            PP&E
       Intelligence to identify and document                 obtained the personal property
       all buildings, facilities and other                   records for review from the
       structure and personal property that                  Directorate of Human Intelligence
       should be reported in DIA financial                   with recommended procedural
       statements as required by DoD                         changes to support existence,
       Financial Management Regulation.                      completeness, valuation, and
                                                             documentation. Estimated
                                                             completion: third quarter, FY 2008.
6.a.   Obtain supporting documentation for       Closed      DIA obtained documentation                 Financial
       the cost of the two unreported                        supporting the cost of these two           Reporting
       buildings located at the Missile and                  buildings, and the cost is now shown
       Space Intelligence Center Complex,                    on the DIA financial statements.
       Huntsville, Alabama, and record the
       appropriate cost in the general ledger
       as required by the DoD Financial
       Management Regulation.




                                                        22
                                                                                                       Functional
No.                    Recommendation                     Status                Justification
                                                                                                         Area
6.b.   Determine whether additional DIA          Open        DIA continues to reconcile its real      PP&E
       structures need to be capitalized                     property with accountable property
       based on the new capitalization                       records maintained by the Military
       threshold policy guidance issued by                   Services. Closure of this
       DoD on March 31, 2006.                                recommendation is dependent on
                                                             completing Recommendation 5.a.
                                                             Estimated completion:
                                                             September 30, 2008.
7.a.   Develop policy and procedures that        Closed      DIA developed policies and               PP&E
       identify the roles and responsibilities               procedures to identify the roles and
       for gathering and identifying deferred                responsibilities for gathering and
       maintenance information and costs                     identifying deferred maintenance
       for all real and other personal                       information and costs.
       property located throughout the
       agency that are reported on financial
       statements.
7.b.   Ensure that the amounts identified as     Closed      DIA determined that the FY 2007          Financial
       deferred maintenance and reported                     deferred maintenance for the Defense     Reporting
       on financial statements for all DIA                   Intelligence Analysis Center was
       PP&E are properly supported as                        immaterial. This information was
       required by the DoD Financial                         shown on the September 30, 2007
       Management Regulation.                                Financial Statements. DIA computed
                                                             the deferred maintenance for other
                                                             DIA sites as of December 31, 2007.
7.c.   Determine whether the agency has          Open        DIA determined that there were no        PP&E
       personal property with deferred                       material amounts of deferred
       maintenance that meets the reporting                  maintenance as of December 31,
       threshold and include these amounts                   2007. However, this information
       in the annual financial statements.                   will not be shown on the financial
                                                             statements until the third quarter of
                                                             FY 2008, the date when DIA will
                                                             first include the notes to the interim
                                                             financial statements. Estimated
                                                             completion: June 30, 2008.
7.d.   Include a narrative statement in          Closed      DIA includes the required narrative      Financial
       financial statements that discloses                   in its financial statements.             Reporting
       and describes the method used to
       determine the estimated amounts of
       deferred maintenance, information on
       asset condition, and whether there are
       material amounts of deferred
       maintenance for General PP&E
       personal property, as required by the
       DoD Financial Management
       Regulation.
8.a.   Develop policies and procedures that      Closed      DIA developed the required policies      Financial
       specify the roles and responsibilities                and procedures specifying the roles      Reporting
       for identifying, recording in property                and responsibilities for identifying
       records, and reporting heritage assets                and recording property heritage
       in the financial statements.                          assets.



                                                        23
                                                                                                       Functional
No.                    Recommendation                     Status                Justification
                                                                                                         Area
8.b.   Require that all paintings, prints, and   Open        DIA identified heritage assets and the   PP&E
       artifacts located throughout the                      currently maintains the inventory in a
       Defense Intelligence Analysis                         Microsoft Access database. DIA
       Center, Armed Forces Medical                          personnel transferred this
       Institute Center, and the Missile and                 information into the property
       Space Intelligence Center that are                    accountability system, but because of
       categorized as heritage assets be                     conversion problems, personnel must
       recorded in the property                              manually enter some data into the
       accountability system.                                system manually. Estimated
                                                             completion: second quarter,
                                                             FY 2008.
8.c.   Report all DIA heritage assets in the     Closed      DIA now reports its heritage assets as   Financial
       financial statements as notes to the                  required.                                Reporting
       financial statements as required by
       the Statement of Federal Financial
       Accounting Standards No. 29 and the
       DoD Financial Management
       Regulation.
9.a.   Develop policy and procedures for         Open        DIA is working with its Acquisition      PP&E
       identifying, recording in property                    Directorate to ensure that contracts
       records, and reporting system                         for information technology hardware
       hardware and software assets that are                 and software are properly structured
       located throughout the agency.                        in the contract or in Military
                                                             Interdepartmental Purchase Requests
                                                             to facilitate proper asset
                                                             classification. Estimated completion:
                                                             September 30, 2009.
9.b.   Require applicable directorates to        Open        DIA is implementing portfolio            PP&E
       coordinate with the Office of                         management to provide oversight of
       Engineering and Logistics Services                    its information technology assets, to
       in identifying, recording, and                        include the hardware and systems
       reporting of all systems hardware and                 that support the information
       software that meets the capitalization                technology assets. Estimated
       threshold in the DoD Financial                        completion of the final phase of the
       Management Regulation.                                new system is scheduled for the
                                                             fourth quarter, FY 2009.
9.c.   Report all DIA system hardware and        Open        DIA continues to work on identifying     Financial
       software assets in financial                          its system hardware and software.        Reporting
       statements as required by DoD                         Estimated completion: fourth
       Financial Management Regulation.                      quarter, FY 2009.




                                                        24
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Intelligence
Assistant to the Secretary of Defense for Intelligence Oversight

Other Defense Organizations
Director, Defense Intelligence Agency
   Inspector General, Defense Intelligence Agency
Director, National Geospatial-Intelligence Agency
Director, National Security Agency

Non-Defense Federal Organizations
Office of the Director of National Intelligence
  Inspector General, Office of the Director of National Intelligence
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Select Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and foreign Affairs,
  Committee on Oversight and Government Reform
House Permanent Select Committee on Intelligence




                                           25
Defense Intelligence Agency Comments




                     27
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service, prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Patricia A. Marsh
Marvin L. Peek
Dorothy L. Jones
Vincent Nathan
Erin S. Hart
